                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF TNSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                CLOSEOUT MEMORANDUM

TO: AIGI        File Number: I92080021                                        Date: 6 June 2002

Subject: Closeout Memo                                                                  Page 1 of 1


       There was no closeout written at the time this case was closed. The following information was
       extracted from the file in conformance with standard closeout documents.

       Our office was informed that the subject' was alleged to have stolen an NSF Visa Card. OIG
       determined that the subject made purchases with the stolen card. The subject pled guilty to one
       count of violating 18 USC 1701. The subject received two years probation and was required to pay
       restitution.

       Accordingly this case is closed.




   -
                 Prepared by:                    Cleared by:

                Agent:          Attorney:      Supervisor:     AIGI
   Name:



 Signature &
    date:
